IN THE SUPREME COURT OF THE UNITED STATES
No.
MACHIAVELLIFARRAKHAN SIBERIUS
Plaintiff- Petitioner,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et al.
s

Defendants - Respondents,
CERTIFICATE OF COMPLIANCE WITH RULE 33.2
The plaintiff/petitioner, Machiavelli Farrakhan Sibeiius, pro se, hereby certify that,
according to the word count tool in Microsoft Word, the writ of certiorari consists of 15,760 words
and limit to the 40 pages allowed by Rule 33.2(b), including footnotes and excluding the sections
enumerated by Rule 33.1(d). The writ of certiorari complies with Rule 33.2, typeface of Rule
33.1(b), and Order List 589 U.S.
Motion for leave of court, to extend length of writ of certiorari in accordance with Rule 22
and 33.1(d) was filed with the court. A response from the Office of the Clerk was received March
29th, 2021, with the filed adjustments.
I declare under penalty of perjury that
the forgoing is true and correct.
Sworn to and subscribed before me
this 2nd day of April, 2021
Subscribed and sworn to before
ad
day of A^Cv*
This

a

20 ZL\

(X u) Jt o O
(NOTARY PUBLIC)
My commission Expires (XOjLtO
N0WRY PUBLIC
OFFICIAL SEAL
STATE OF WEST VIRGBflA
jracy AVvilj-ams

Wood County csaa ctedte OSes
Govemmoni Sauare
Patesturg, WV 2S1GM353
My Commission Expires April HG 2023

^-Lo

MACHIAVELLI F. SIBERIUS, Pro Se
P.O. Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097
MFSiberius@hotmail.com

IN THE SUPREME COURT OF THE UNITED STATES
No..
MACH3AVELLIFARRAKHAN SIBERIUS
Plaintiff - Petitioner,
v.
AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.; PRESSLEY RIDGE;
WEST VIRGINIA DEPARTMENT OF EDUCATION, et aL
Defendants - Respondents,
CERTIFICATE OF SERVICE
A true and correct copy by the plaintifi/petitioner, MachiaveUi Farrakhan
Siberius, was served on April 2, 2021, using the United States Postal Service. I hereby certify that
I mailed the foregoing paper, the “Petition for Writ of Certiorari,” with the Clerk of the United
States Supreme Court. The defendants/respondents on the service list will receive a copy of the
filing from the United States Postal Service.

It,aui0——
Date: ^/~2MACHIAVELLIF. SIBERIUS, Pro Se
P.O. Box 1162
Parkersburg, WV 26102
Telephone: (304) 210-6097:
MFSiberius@hotmail.com

Subscribed and sworn to before
This

3-'*

dav of

.20

Cl La J a C^>Q
(NOTARY PUBLIC)
My-commissTon E^lg^.. ]

STATE OF

\

3l1

Service List

AMERICAN PUBLIC UNIVERSITY SYSTEM, INC.
Attorney: Allison B. Williams & Larry J. Rector
Mail: 400 White Oaks Boulevard,
Bridgeport, WV 26330
WEST VIRGINIA DEPARTMENT OF EDUCATION
Attorney: J. Victor Flanagan & Katie L. Hicklin Luyster
Mail: 901 Quariier Street, James Mark Building,
Charleston, WV 25301
PRESSLEY RIDGE
Attorney: Joseph Selep & Dara A. DeCourcv
Mail: 310 Grant Street, Suite 3000,
Pittsburgh, PA 15219

